{ f-"
    .::,~ SU,V1Cis,&",

                            DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                         Office of Inspector General
                                                                                                         Office of Audit Services

Q        Jit.---------­
"'+~.:~                                                                                                  Region VII
                                                                                                         60 I East121h Street
                                                                                                         Room 0429
                                                                                                         Kansas City, Missouri 64106
                     JUL 1 6 2009
                         Report Number: A-07-09-02755

                         Ms. Joan Henneberry
                         Executive Director
                         Department of Health Care Policy & Financing

                         1570 Grant Street

                         Denver, Colorado 80203-1818

                         Dear Ms. Henneberry:

                         Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                         General (OIG), final report entitled "Review of Medicaid Credit Balances at Boulder Manor
                         Nursing Home." We will forward a copy of this report to the HHS action official noted on the
                         following page for review and any action deemed necessary.

                         The HHS action official will make final determination as to actions taken on all matters reported.
                         We request that you respond to this official within 30 days from the date of this letter. Your
                         response should present any comments or additional information that you believe may have a
                         bearing on the final determination.

                         Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                         available to the public to the extent that information in the report is not subject to exemptions in
                         the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                         If you have any questions or comments about this report, please do not hesitate to call me at
                         (816) 426-3591, or contact Jim Korn, Audit Manager, at (303) 844-7153 or through email at
                         James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02755 in all correspondence.

                                                                        Sincerely,




                                                                  ~    Regional Inspector General
                                                                        for Audit Services


                         Enclosure
Page 2 – Ms. Joan Henneberry


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICAID CREDIT
BALANCES AT BOULDER MANOR
      NURSING HOME




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-07-09-02755
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

Providers of Medicaid services, such as nursing facilities, submit claims to the State agency in
order to receive compensation for the services they provide to Medicaid beneficiaries. The State
agency processes and pays the claims. The Federal Medical Assistance Percentage specifies the
percentage of each claim to be reimbursed by Federal funds (this reimbursement is commonly
referred to as the Federal share) and is determined pursuant to 42 CFR § 433.10.

Credit balances occur when the Federal reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges earned, for example when a provider
bills Medicaid for more days than the patient was at the facility. In such cases, the provider
should return the existing overpayment to the Medicaid program, which pursuant to 42 CFR
§ 433.139 is the payer of last resort.

To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Federal regulations
require States to adjust any outstanding credit balances within 60 days after notification by a
provider that a credit balance exists. The Code of Colorado Regulations at 10 CCR 2505-10
§ 8.076.1 defines abuse of the Medicaid program as provider practices that are inconsistent with
sound fiscal or business practices, to include failure to repay or make arrangements to repay
overpayments or payments made in error.

Boulder Manor Nursing Home (Boulder Manor) is a 165-bed nursing home located in Boulder,
Colorado, that participates in the Medicaid program. It is one of several affiliated homes in a
multi-nursing home chain run by Sava Senior Care (Sava). Sava provides both short-term and
long-term health care services and, through its affiliated entities, provides services through
skilled nursing facilities in several States.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Boulder
Manor’s accounting records for patient services constituted overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements.




                                                i
SUMMARY OF FINDINGS

Medicaid credit balances recorded in Boulder Manor’s accounting records for patient services
included $49,322 ($24,661 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. These Medicaid
credit balances also included $23,036 ($11,518 Federal share) in potentially unallowable
overpayments that may, subject to further evaluation by the State agency, have to be returned to
the Medicaid program.

Although Boulder Manor significantly improved the repayment of outstanding Medicaid credit
balances in recent months, Boulder Manor had a large backlog of outstanding credit balances
that had not been addressed yet. Fourteen of the 24 accounts reviewed with outstanding
Medicaid credit balances were associated with billings that occurred over three years ago. As a
result, Boulder Manor did not repay Medicaid overpayments totaling $49,322 ($24,661 Federal
share) to the Medicaid program in a reasonable time period in accordance with Federal and State
Medicaid requirements.

These errors occurred because Boulder Manor had inadequate policies and procedures in place to
ensure the timely reimbursement of Medicaid overpayments. Specifically, Boulder Manor did
not always have policies and procedures in place to:

   •   regularly review the Accounts Receivable Detail Report to identify and confirm
       outstanding Medicaid credit balances that were payable to the State agency and

   •   notify the State agency regarding outstanding Medicaid credit balances that were due and
       payable.

Furthermore, Boulder Manor officials confirmed that most of the credit balances over 60 days
old were Medicaid overpayments. Due to the inadequacy of policies and procedures that would
ensure that Boulder Manor would notify the State agency and refund any overpayments, we are
setting aside, for adjudication by the State agency, the remaining credit balances at that facility:
credit balances that we did not review and that totaled $23,036 ($11,518 Federal share) in
potentially unallowable costs.

In our review of the accounts in Boulder Manor’s accounting records, we determined that
$16,927 ($8,463 Federal share) were not actually overpayments. These funds were included in
Boulder Manor’s accounting records in error.

RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Boulder Manor the $49,322 ($24,661 Federal share) of Medicaid
       overpayments and refund the $24,661 to the Federal Government;




                                                  ii
   •   work with Boulder Manor to evaluate the remaining credit balances that we did not
       review and determine what portion (if any) of the $23,036 ($11,518 Federal share) was
       due to Medicaid overpayments, and then collect that portion and refund the Federal share
       to the Federal Government; and

   •   ensure that Boulder Manor develops, implements, documents, and maintains written
       policies and procedures to identify outstanding Medicaid credit balances and to notify the
       State agency of these credit balances in a timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments appear in their entirety as the Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Federal Reimbursement and Medicaid Credit Balances......................................1
              Boulder Manor Nursing Home ............................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          FEDERAL AND STATE MEDICAID REQUIREMENTS............................................4

          UNALLOWABLE MEDICAID OVERPAYMENTS ....................................................4

          POTENTIALLY UNALLOWABLE MEDICAID OVERPAYMENTS ........................5

          INADEQUATE POLICIES AND PROCEDURES ........................................................5

          RECOMMENDATIONS.................................................................................................6

          STATE AGENCY COMMENTS....................................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

Federal Reimbursement and Medicaid Credit Balances

Providers of Medicaid services, such as nursing facilities, submit claims to the State agency in
order to receive compensation for the services they provide to Medicaid beneficiaries. The State
agency processes and pays the claims. The Federal Medical Assistance Percentage specifies the
percentage of each claim to be reimbursed by Federal funds (this reimbursement is commonly
referred to as the Federal share) and is determined pursuant to 42 CFR § 433.10.

Credit balances occur when the Federal reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges earned, for example when a provider
bills Medicaid for more days than the patient was at the facility. In such cases, the provider
should return the existing overpayment to the Medicaid program, which pursuant to 42 CFR
§ 433.139 is the payer of last resort.

To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Federal regulations
require States to adjust any outstanding credit balances within 60 days after notification by a
provider that a credit balance exists. The Code of Colorado Regulations at 10 CCR 2505-10
§ 8.076.1 defines abuse of the Medicaid program as provider practices that are inconsistent with
sound fiscal or business practices, to include failure to repay or make arrangements to repay
overpayments or payments made in error.

Boulder Manor Nursing Home

Boulder Manor Nursing Home (Boulder Manor) is a 165-bed nursing home located in Boulder,
Colorado, that participates in the Medicaid program. It is one of several affiliated homes in a
multi-nursing home chain run by Sava Senior Care (Sava). Sava provides both short-term and
long-term health care services and, through its affiliated entities, provides services through
skilled nursing facilities in several States.




                                                1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Boulder
Manor’s accounting records for patient services constituted overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements.

Scope

We identified $89,285 ($44,642 Federal share) which comprised the 86 accounts in Boulder
Manor’s accounting records whose net Medicaid credit balances were, as of February 28, 2009,
outstanding over 60 days. We selected 24 of the 86 accounts totaling $66,249 ($33,124 Federal
share) for detailed testing.

We did not review the overall internal control structure at either Boulder Manor or the State
agency because our objective did not require us to do so. Rather, we limited our review of
internal controls to obtaining an understanding of the policies and procedures that Boulder
Manor used to review credit balances and report overpayments to the Medicaid program.

We performed our fieldwork in March 2009 at Boulder Manor in Boulder, Colorado.

Methodology

To accomplish our objective, we:

   •    researched and reviewed Federal and State requirements pertaining to Medicaid credit
        balances;

   •    identified and reconciled Boulder Manor’s Medicaid credit balances to its accounting
        records as of February 28, 2009;

   •    reconciled Boulder Manor’s February 28, 2009, credit balance list to the accounts
        receivable records, and reconciled the accounts receivable records to the general ledger;

   •    judgmentally selected and tested 24 credit balance accounts that were outstanding over 60
        days, that had Medicaid listed as a payer, and that had credit balances greater than
        $1,000;

   •    reviewed provider claim reports, patient accounts receivable detail, and additional
        supporting documentation for each of the judgmentally selected credit balance accounts;
        and

   •    coordinated our audit with officials from the State agency.




                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Medicaid credit balances recorded in Boulder Manor’s accounting records for patient services
included $49,322 ($24,661 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. These Medicaid
credit balances also included $23,036 ($11,518 Federal share) in potentially unallowable
overpayments that may, subject to further evaluation by the State agency, have to be returned to
the Medicaid program.

Although Boulder Manor significantly improved the repayment of outstanding Medicaid credit
balances in recent months, Boulder Manor had a large backlog of outstanding credit balances
that had not been addressed yet. Fourteen of the 24 accounts reviewed with outstanding
Medicaid credit balances were associated with billings that occurred over three years ago. As a
result, Boulder Manor did not repay Medicaid overpayments totaling $49,322 ($24,661 Federal
share) to the Medicaid program in a reasonable time period in accordance with Federal and State
Medicaid requirements.

These errors occurred because Boulder Manor had inadequate policies and procedures in place to
ensure the timely reimbursement of Medicaid overpayments. Specifically, Boulder Manor did
not always have policies and procedures in place to:

   •   regularly review the Accounts Receivable Detail Report to identify and confirm
       outstanding Medicaid credit balances that were payable to the State agency and

   •   notify the State agency regarding outstanding Medicaid credit balances that were due and
       payable.

Furthermore, Boulder Manor officials confirmed that most of the credit balances over 60 days
old were Medicaid overpayments. Due to the inadequacy of policies and procedures that would
ensure that Boulder Manor would notify the State agency and refund any overpayments, we are
setting aside, for adjudication by the State agency, the remaining credit balances at that facility:
credit balances that we did not review and that totaled $23,036 ($11,518 Federal share) in
potentially unallowable costs.

In our review of the accounts in Boulder Manor’s accounting records, we determined that
$16,927 ($8,463 Federal share) were not actually overpayments. These funds were included in
Boulder Manor’s accounting records in error.




                                                  3
FEDERAL AND STATE MEDICAID REQUIREMENTS

42 U.S.C. § 1396(b)(d)(2)(C) states that, “when an overpayment is discovered, which was made
by a State to a person or other entity, the State shall have a period of 60 days in which to recover
or attempt to recover such overpayment before adjustment is made in the Federal payment to
such State on account of such overpayment . . . . [T]he adjustment in the Federal payment shall
be made at the end of the 60 days, whether or not recovery was made.”

Pursuant to the implementing regulations for this legislation, 42 CFR § 433, subpart F,
“Refunding the Federal Share of Medicaid Overpayments to Providers,” States must adjust any
outstanding credit balances.

In accordance with these Federal regulations, the State agency must adjust the applicable claim
or recover the amount of the Medicaid overpayment from the provider within 60 days of
notification. The Code of Colorado Regulations at 10 CCR 2505-10 § 8.076.3 states that
identified overpayments to a provider are recoverable “. . . through a repayment agreement with
the Provider, by offsetting the amount owed against current and future claims of the Provider,
through litigation, or by any other appropriate action within the [State agency’s] legal authority.”

The Code of Colorado Regulations at 10 CCR 2505-10 § 8.076.1 defines abuse of the Medicaid
program as provider practices that are inconsistent with sound fiscal or business practices, to
include failure to repay or make arrangements to repay overpayments or payments made in error.
To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Although the State
regulations contain this language, the State of Colorado does not have any regulations requiring
providers to refund Medicaid credit balances within a specified timeframe.

UNALLOWABLE MEDICAID OVERPAYMENTS

Medicaid credit balances recorded in Boulder Manor’s accounting records for patient services
included $49,322 ($24,661 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. Our judgmental
sample identified 24 cases of Medicaid credit balances at Boulder Manor that were, as of
February 28, 2009, over 60 days old—and 14 of the 24 cases with outstanding Medicaid credit
balances were associated with billings that occurred over three years ago.

These overpayments occurred primarily because in some cases Boulder Manor charged Medicaid
for more days than patients were at the facility and because in some cases Boulder Manor billed
Medicaid for part of the portion of costs for which patients were responsible. Sometimes the
credit balances were outside the control of the nursing facility because the appropriate county did
not verify the beneficiary’s income or determine the patient payment amount in a timely manner.

The types of issues described above can be improved, but the normal operations of the nursing
home facility are such that overpayments will occur. Accordingly, this review focused on
whether Boulder Manor had adequate policies and procedures in place to notify and repay the
State agency in a timely manner once a Medicaid overpayment had been identified.



                                                 4
In October 2008, Boulder Manor hired a new Accounts Receivable employee who has helped
Boulder Manor repay the State agency in a more timely manner. Our analysis of Boulder
Manor’s outstanding accounts receivable revealed that only two patient accounts totaling almost
$3,000, or six percent of the outstanding balance tested, were aged less than 180 days, indicating
that within this period overpayments were generally repaid in a timely manner in compliance
with the State requirements. Compared to prior periods, this trend represented a significant
improvement.

POTENTIALLY UNALLOWABLE MEDICAID OVERPAYMENTS

Medicaid credit balances recorded in Boulder Manor’s accounting records for patient services
included $23,036 ($11,518 Federal share) in potentially unallowable overpayments that may,
subject to further evaluation by the State agency, have to be returned to the Medicaid program.

During our fieldwork, Boulder Manor officials confirmed that most of the credit balances over
60 days old—that is, most of the credit balances above and beyond the 24 that we judgmentally
selected for review—were Medicaid overpayments. Due to the inadequacy of policies and
procedures that would ensure that Boulder Manor would notify the State agency and refund any
overpayments, we are setting aside, for adjudication by the State agency, the remaining credit
balances at that facility: credit balances that we did not review and that totaled $23,036 ($11,518
Federal share) in potentially unallowable costs.

INADEQUATE POLICIES AND PROCEDURES

Boulder Manor had inadequate policies and procedures in place to ensure the timely
reimbursement of Medicaid overpayments pursuant to Federal and State requirements.
Specifically:

   •   Boulder Manor did not always have policies and procedures in place to regularly review
       the Accounts Receivable Detail Report to identify and confirm outstanding Medicaid
       credit balances that were payable to the State agency; however, Boulder Manor officials
       said that the facility was currently implementing such policies and procedures.

   •   Boulder Manor did not always have policies and procedures in place to notify the State
       agency regarding outstanding Medicaid credit balances that were due and payable;
       however, Boulder Manor officials said that the facility was currently implementing such
       policies and procedures.

   •   Boulder Manor had not documented its current policies and procedures to identify and
       confirm outstanding Medicaid credit balances or to notify the State agency of such
       balances. Thus, although it appeared that the current Accounts Receivable staff was
       properly processing Medicaid overpayments, a continued absence of documented policies
       and procedures, if combined with any future employee turnover at Boulder Manor, could
       lead to problems in the identification, and timely notification to the State agency, of the
       outstanding Medicaid overpayments.




                                                5
RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Boulder Manor the $49,322 ($24,661 Federal share) of Medicaid
       overpayments and refund the $24,661 to the Federal Government;

   •   work with Boulder Manor to evaluate the remaining credit balances that we did not
       review and determine what portion (if any) of the $23,036 ($11,518 Federal share) was
       due to Medicaid overpayments, and then collect that portion and refund the Federal share
       to the Federal Government; and

   •   ensure that Boulder Manor develops, implements, documents, and maintains written
       policies and procedures to identify outstanding Medicaid credit balances and to notify the
       State agency of these credit balances in a timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments appear in their entirety as the Appendix.




                                               6
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
